                            U.S. Department of Agriculture

                                Office of Inspector General
                                       Great Plains Region




                Audit Report


 Hurricane Relief Initiatives – Barge Movement,
Barge Unloading, Alternative Grain Storage, and
    Transportation Differential Agreements




                 Report Nos. 03601-21-KC and 03601-22-KC
                                              March 2007
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington, D.C. 20250




DATE:         March 20, 2007

REPLY TO
ATTN OF:      03601-21-KC and 03601-22-KC
TO:           Teresa C. Lasseter
              Administrator
              Farm Service Agency
ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff
FROM:         Robert W. Young             /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Hurricane Relief Initiatives - Barge Movement, Barge Unloading, Alternative
              Grain Storage, and Transportation Differential Agreements

Summary

In response to Hurricane Katrina, the Department announced four initiatives intended to relieve
transportation (barge movement) congestion on the Mississippi River. These initiatives included
grants for moving damaged corn from New Orleans, promoting alternative warehouse storage in
the Mississippi River region, moving agricultural commodities through other regions, and
encouraging the unloading of commodities that were left on barges in the New Orleans area. The
Office of Inspector General initiated two audits to evaluate how effectively the Farm Service
Agency (FSA) implemented these four initiatives. This report combines the results of these two
audits as well as our review of FSA’s emergency storage provisions, which allowed grain
warehouse operators to request approval for short-term emergency storage.

Due to the urgent need to restore the movement and storage of grain in the hurricane area, the
Department used ad hoc procedures to award three noncompetitive grants for alternative grain
storage and barge movement projects. The Department did not effectively coordinate initial
requests by large grain exporters for assistance in moving barges of grain from the hurricane
area. Verbal agreements were made with two grain companies that lacked transparency and
competition to minimize costs and ensure relief to all affected companies. The lack of adequate
coordination and a formal response and recovery plan to handle such exigencies led to confusion,
problems with confirming agreements reached, and some delays in implementing relief efforts.


USDA/OIG-A/03601-21-KC and 03601-22-KC
Teresa C. Lasseter                                                                                2


These problems were quickly recognized, and FSA took action to publicize the four hurricane
relief initiatives as well as guidelines in the Federal Register for awarding competitive grants for
these initiatives. While the Commodity Credit Corporation (CCC) Charter Act does allow CCC
to award noncompetitive agreements, the Department should develop a formal response and
recovery plan that would minimize costs, ensure competition, and timely respond to needed
relief. We contacted economists with a research group to determine the economic value of these
agreements. The economists contended that the economic costs of the agreements cannot be
quantified due to multiple factors influencing local grain prices and barge rates. However, we
noted differences in barge and storage costs totaling $5.6 million between the noncompetitive
and competitive agreements (see exhibit A).

We found that after FSA publicized and issued guidelines, FSA effectively implemented its relief
efforts. In December 2005, the Secretary requested each agency to identify and act on lessons
learned from the Department’s response to the hurricanes. In July 2006, the Under Secretary for
Farm and Foreign Agricultural Services identified the problems experienced in developing and
implementing relief efforts and recommended actions to improve coordination and assign
responsibility. In addition to these actions, we recommend that USDA build on its lessons
learned and formalize its response and recovery plan for alleviating river and other transportation
congestion after major storms or other disasters. In its written response, the FSA believes that it
has already implemented the actions cited in our recommendation.

These audits were conducted in conjunction with the President’s Council on Integrity and
Efficiency (PCIE) as part of its examination of the Federal government’s relief efforts in the
aftermath of Hurricanes Katrina and Rita. As such, a copy of this report will be forwarded to the
PCIE Homeland Security Working Group, which is coordinating Inspector General reviews of
this important subject.

Background

On June 22, 2005, before the hurricanes struck, FSA issued detailed requirements for warehouse
emergency storage for 2005. 1 Under this program, warehouse operators with CCC storage
agreements could request CCC’s approval of short-term emergency storage (e.g., ground piles
and temporary storage space) in areas where harvests exceed locally available commercial
storage space. As of November 3, 2005, 383 warehouse operators had requested and received
approval for emergency storage.

In the wake of Hurricanes Katrina and Rita, the U.S. Department of Agriculture (USDA) faced
serious disruption in the movement of agricultural commodities along the Mississippi River.
Approximately 50 to 65 percent of all U.S. grain exports move down the Mississippi River to the
Gulf of Mexico, and about 66 percent of all corn and soybeans are exported through
New Orleans export terminals. Because the hurricane damage affected the entire Mississippi
River region, the shipment of grain was slowed considerably. On September 20, 2005, following
Hurricane Katrina, the Secretary announced that USDA would implement three initiatives to
1
    BCD Notice 102.
USDA/OIG-A/03601-21-KC and 03601-22-KC
Teresa C. Lasseter                                                                            3


reduce congestion in the grain transportation and storage system along the Mississippi River. On
September 22, 2005, a notice from the FSA Bulk Commodity Division (BCD) provided
additional information. 2 On October 5, 2005, a notice in the Federal Register formally
announced three initiatives:

    1. alternative storage grants to promote storing corn and wheat in alternative storage
       facilities;
    2. barge movement grants to promote moving damaged corn from the New Orleans area;
       and
    3. transportation differential grants to promote moving corn, wheat, and soybeans through
       regions other than the Central Gulf. 3

On November 7, 2005, another notice announced a fourth initiative, which authorized barge
unloading grants to promote unloading commodities that were left on barges in the New Orleans
area. 4 All initiatives were funded through CCC and administered by FSA. FSA disbursed
approximately $22.7 million of the total $38.7 million authorized for the initiatives.

Prior to the issuance of BCD Notice 113 and the first Federal Register notice, the Department
accepted three verbal agreements (obtained through a noncompetitive process) with two grain
companies (one for barge movement and two for alternative storage). Subsequently, FSA
awarded the remaining agreements through a competitive bidding process and hired a contractor
to help evaluate the bids. In total, 27 agreements were issued under these four initiatives and
affected the grain transportation system as follows:

    •   under 18 alternative storage agreements (of which 2 were noncompetitive),
        31,968,063 bushels of grain were placed in alternative storage;
    •   under 3 transportation differential agreements, 293,981 tons of grain were diverted from
        the Mississippi River system to the Pacific Northwest and the Great Lakes; and
    •   under 3 barge movement (of which 1 was noncompetitive) and 3 barge unloading
        agreements, 211 barges with 318,352 tons of agricultural commodities were moved and
        then unloaded outside of the New Orleans area. 5




2
  BCD Notice 113.
3
  Federal Register, 70 FR 58179 (October 5, 2005).
4
  Federal Register, 70 FR 67410 (November 7, 2005).
5
  This statistic includes both barge movement and barge unloading grants.
USDA/OIG-A/03601-21-KC and 03601-22-KC
Teresa C. Lasseter                                                                            4


The following table illustrates how these grants were awarded—competitively and
noncompetitively—for each of the four initiatives.

    Initiative       Total Payments   Non-Competitive       Competitive     Percent of Non-
                                         Payments            Payments        Competitive
                                                                              Payments
 Alternative          $7.85 million      $5.91 million      $1.94 million     75 percent
 Storage
 Barge               $10.68 million      $8.20 million      $2.48 million      77 percent
 Movement
 Transportation       $1.94 million            0            $1.94 million           0
 Differential
 Barge                $2.23 million            0            $2.23 million           0
 Unloading
 Total               $22.70 million     $14.11 million     $8.59 million       62 percent


Objectives

We evaluated how FSA implemented and administered USDA’s hurricane relief initiatives,
which were designed to alleviate stress on the grain transportation system. We assessed whether
reasonable controls were established and whether the efforts were effective. We also reviewed
FSA’s provisions for emergency storage.

Scope and Methodology

As part of our fieldwork performed between January and April 2006, we spoke with USDA
officials from the Office of the Under Secretary for Farm and Foreign Agricultural Services,
FSA, the Agricultural Marketing Service, the Office of the General Counsel, and the Chief
Economist. We also spoke with the contractor FSA hired to advise the agency on grant
proposals.

In total, the Department issued 27 agreements and disbursed $22.7 million of the $38.7 million
authorized for the initiatives. We reviewed the records and documents supporting agreement
payments at the Kansas City Commodity Office for:

   •   all 3 barge movement agreements, which totaled about $10.68 million;
   •   2 of the 3 barge unloading agreements, which totaled approximately $1.9 million of the
       $2.23 million in payments made for this initiative;
   •   all 3 transportation differential agreements, which totaled about $1.94 million; and
   •   all 18 alternative grain storage agreements, which totaled $7.85 million.

We visited corporate offices for five of the six companies that received barge movement, barge
unloading, and transportation differential grant payments. We conducted site visits to four
USDA/OIG-A/03601-21-KC and 03601-22-KC
Teresa C. Lasseter                                                                                  5


judgmentally selected warehouse operators approved for alternative storage—these four
warehouse operators received incentive payments totaling over $6.1 million. We spoke with
representatives of two companies whose barge grant proposals were not accepted and also with
representatives of four national grain associations in order to find out if the initiatives had helped
to relieve congestion in the grain transportation system. We also visited one warehouse
operator’s corporate office to determine if the company had any concerns about how the
initiatives were announced, awarded, and administered.

As part of our review of FSA’s emergency storage provisions, we audited two judgmentally
selected warehouse operators who had been approved for emergency storage. One of these two
operators, however, stored commodities under the alternative storage initiative rather than under
emergency storage provisions. Thus, we reviewed the other warehouse operator’s internal
controls over grain stored in emergency storage conditions. Based on our preliminary assessment
of the internal management control policies and operating procedures for emergency storage, and
the fact no adverse conditions were noted at the two sites visited, we concluded this part of our
review.

This audit was performed in accordance with Government Auditing Standards.

Finding and Recommendation

USDA Needs to Develop Response and Recovery Plan

In developing and implementing its ad hoc response, the Department, without competition,
accepted three verbal offers from two grain companies with rates that were higher than rates for
similar services solicited through competitive bidding. This occurred because USDA lacked a
response and recovery plan to relieve disaster transportation congestion. FSA was, therefore,
forced to quickly develop ad hoc procedures to address the transportation problems resulting
from the hurricanes. We noted differences in barge and storage costs totaling as much as
$5.6 million between the noncompetitive and competitive grants (see exhibit A).

The CCC Charter Act allows the CCC to award noncompetitive agreements. After the
hurricanes, USDA was faced with serious and urgent transportation problems along the
Mississippi—problems that could result in increased program costs for the Government due to
additional commodity price support benefits farmers would be able to obtain in the region. Grain
storage facilities in the region were at or near capacity, and barges clogged the river, slowing the
normal flow of commodities. If the Department had not quickly responded, the rapid drop in
market prices, coupled with the duration of the situation, could have cost the Government
significant sums in terms of increased market price support assistance. It could also have reduced
sales proceeds for producers and increased storage and transportation costs for both producers
and industry. For example, many farmers in the region could have received higher loan




USDA/OIG-A/03601-21-KC and 03601-22-KC
Teresa C. Lasseter                                                                                                 6


deficiency payments (LDP) due to the corresponding drop in posted county prices and resulting
increase in LDP rates. 6

USDA’s four initiatives were developed to alleviate the transportation and storage congestion in
the region. Initially, USDA accepted three noncompetitive offers (two for alternative storage and
one for barge movement) from two companies. 7 Departmental officials agreed to these offers
before determining that a notice soliciting competitive bids should be published. 8

We determined that the pre-announcement, noncompetitive rates were higher than the
post-announcement, competitive rates.

    •   The average rate per bushel for alternative storage was approximately 10 cents more for
        the 2 pre-announcement agreements ($0.2796) than for the 17 post-announcement
        agreements ($0.1761), or $2.2 million ($0.10 multiplied by 22 million bushels for the
        noncompetitive agreements).

    •   The average rate per ton for a noncompetitive barge movement for about 100 miles was
        $31.25 more for the pre-announcement agreement ($65 per ton) than for a
        post-announcement agreement ($33.75 per ton), or $3.4 million ($31.25 multiplied by
        110,000 tons moved).

Although USDA incurred additional expenditures by awarding noncompetitive grants, we found
that determining whether it received commensurate value for the total amount expended was
complicated by many variables. Economic experts with the Food and Agricultural Policy
Research Institute (FAPRI) stated that the four initiatives did likely have a positive financial
impact since they helped restore the flow of commodities and caused market prices to rise. They
also concluded that increased market prices, in turn, reduced the payment rate for Government
LDPs and the duration that higher LDP payment rates would have been paid. Specifically, they
concluded that complete basis 9 recovery (market prices) occurred approximately 8 weeks after
Katrina when Mississippi River traffic returned to near normal levels. 10



6
  An LDP is an interim financing option that can be exercised by a producer to meet cash flow needs at harvest time,
when market prices are typically low. The LDP rate equals the amount by which the applicable loan rate, where the
commodity is stored, exceeds the CCC-determined alternative loan rate. For most eligible commodities, the
alternative loan repayment rate is the CCC-determined market price. LDPs are payments instead of loans –
 therefore, do not need to be repaid.
7
   One company offered to store 3 million bushels of grain at $.33 per bushel, move 35,000 tons of corn at
$30 per ton, and move 110,000 tons of corn at $65 per ton. Another company offered to store 34 million bushels of
corn at $.15-$.30 per bushel.
8
  BCD Notice 113, September 22, 2005.
9
  Basis is the difference between the current cash price of a commodity and the futures price of the same commodity
(Basis = Cash Price less Futures Price). The basis accounts for the difference in the supply and demand relationships
in the local market relative to the futures market.
10
   FAPRI Mississippi River Research Conclusions, Executive Summary, FAPRI-UMC Report #10-06, June 2006.
USDA/OIG-A/03601-21-KC and 03601-22-KC
Teresa C. Lasseter                                                                                   7


FAPRI officials also indicated that the value USDA received for entering into the agreements
cannot be quantified due to multiple factors influencing local grain prices and barge rates. The
officials explained that quantifying the effects of the initiatives would require analyzing variables
such as fuel costs, river levels, and harvest yield. In their opinion, such an analysis is not possible
and the exact dollar effect of USDA’s initiatives cannot be determined. Thus, they concluded
that the cost benefit or effectiveness of the various rates USDA accepted could not be precisely
determined.

Neither FSA nor the USDA Office of the Chief Economist conducted an economic analysis of
the initiatives’ impact. However, we noted that after the initiatives were announced in the
Federal Register, the difference in barge rates from St. Louis to New Orleans declined from a
high of about $28 over the 4-year average 11 to a low of approximately $3 over the 4-year
average. 12 We were unable to evaluate the monetary impact due to multiple variables such as the
river condition, fluctuating market prices, and harvest yields. However, we did analyze the bases
of four warehouse operators who received alternative grain storage payments. This analysis
disclosed that the market basis weakened (increased) significantly after Hurricane Katrina struck
on August 29, 2005. At these four warehouses for the period of August 1 through
September 30, 2005, the average corn basis increased by approximately $.40 per bushel,
resulting in potentially lower local prices available to a producer. For the four selected
warehouse operators, the market basis started to strengthen (decrease) after the initiatives were
announced on October 5, 2005. The basis decreased by approximately $.20 for the period of
October 5 through October 19, 2005, resulting in potentially higher local prices available to a
producer. The basis continued to strengthen through the months of October and November.
Similarly, the average posted county prices at the four warehouse operators also rebounded
during the same period, improving from a low of $1.54 to $1.693, by November 30, 2005.
FAPRI officials further indicated that there were many factors at play in the market when the
initiatives were announced, and it would be very difficult to conclude that changes in marketing
prices or posted county prices were the result of a particular initiative.

Though it was not possible to determine exactly how beneficial both the noncompetitive and the
competitive grants were in the months following the hurricanes, we concluded that the
Department did receive value for its expenditures resulting from those initiatives. Nevertheless,
we believe that FSA can best ensure that it obtains the most effective rates and ensure
competition and timely response to needed relief, by developing a response and recovery plan to
prepare for similar events in the future.

In December 2005, while our audit was in process, USDA requested that each agency identify
and act on lessons learned from the Department’s response to the hurricane. In a
Decision Memorandum for the Secretary, signed on July 26, 2006, the Under Secretary for Farm
and Foreign Agricultural Services acknowledged the problems experienced during the relief
effort and made recommendations to assign responsibilities for the coordination, development,

11
     $37 per ton (4-year average) compared to $9 per ton the week of October 12, 2005.
12
     $11 per ton (4-year average) compared to $8 per ton the week of November 9, 2005.
USDA/OIG-A/03601-21-KC and 03601-22-KC
Teresa C. Lasseter                                                                              8


and implementation of future relief efforts. However, these recommendations did not include any
measures to prepare USDA to mitigate the effect of future grain storage and transportation
system disruptions. USDA needs to build on its lessons learned and formalize its response and
recovery plan for alleviating river or other transportation congestion after major storms or other
disasters.

Recommendation to the FSA Administrator:
Coordinate with the Under Secretary, industry stakeholders, and other involved USDA and
Federal agencies to develop and formalize a response and recovery plan for disruptions to the
grain transportation and storage systems.

Agency Response:

FSA concurred with this recommendation in their response to the draft report, dated
March 1, 2007. The reply stated, in part, “On July 26, 2006, the Secretary of Agriculture
approved a response and recovery plan for disruptions to the United States grain transportation
and storage systems using the lessons learned from the Department of Agriculture’s response to
Hurricane Katrina.” The FSA believes they have already implemented the actions cited therein.
FSA’s response is included in its entirety (see exhibit B). A copy of the Decision Memorandum
for the Secretary is also included as exhibit C.

OIG Position:

In order to accept management decision, we need additional information. We believe that the
Decision Memorandum for the Secretary has identified the key responsibilities within the
Department but it cannot be considered as a formal response and recovery plan for USDA
personnel to follow because the memorandum does not address many critical measures other
than information sharing and communication. We believe the plan should include the
identification of specific actions and responsibilities and the parties responsible for performing
them, and measures and timeframes to prepare USDA to mitigate the effect of future grain
storage and transportation system disruptions resulting from a major storm or other disaster. For
example, the response and recovery plan should consider such procedures as:

    •   ensuring that any noncompetitive agreements entered into are beneficial and justified;
    •   collaborating with private companies so that they will be aware of their roles should they
        be needed to help alleviate stress on the grain transportation and storage systems;
    •   monitoring contractors’ performance to determine the value received for the
        Department’s expenditures;
    •   documenting the justification for awarding noncompetitive agreements; and
    •   utilizing pre-existing programs such as emergency storage.
Before we can accept the management decision for this recommendation, we need to be provided
with USDA’s plan for preparing a more comprehensive response and recovery plan and a
timeframe for completing the intended actions.


USDA/OIG-A/03601-21-KC and 03601-22-KC
Teresa C. Lasseter                                                                           9


Departmental Regulation 1720-1 requires a reply within 60 days describing the corrective action
taken or planned and the timeframes for implementation of those recommendations for which
management decision has not been reached. The regulation also requires a management decision
to be reached on all recommendations within a maximum of 6 months from report issuance and
final action to be taken within 1 year of the management decision.
We appreciate the cooperation extended by your staff during this review.




USDA/OIG-A/03601-21-KC and 03601-22-KC
Exhibit A – Summary of Monetary Results
                                                                       Exhibit A – Page 1 of 1




Finding   Recommendation
Number        Number            Description           Amount        Monetary Results
   1            1          Excessive Expenditures   $5.6 million Funds to be Put to Better
                           May Have Resulted                       Use-Management or
                           from Noncompetitive                          Operating
                           Awards                                 Improvement/Savings




USDA/OIG-A/03601-21-KC and 03601-22-KC
Exhibit B – FSA Response to the Draft Report
                                               Exhibit B – Page 1 of 1




USDA/OIG-A/03601-21-KC and 03601-22-KC
Exhibit C – FSA Decision Memorandum for the Secretary
                                                        Exhibit C – Page 1 of 4




USDA/OIG-A/03601-21-KC and 03601-22-KC
Exhibit C – FSA Decision Memorandum for the Secretary
                                                        Exhibit C – Page 2 of 4




USDA/OIG-A/03601-21-KC and 03601-22-KC
Exhibit C – FSA Decision Memorandum for the Secretary
                                                        Exhibit C – Page 3 of 4




USDA/OIG-A/03601-21-KC and 03601-22-KC
Exhibit C – FSA Decision Memorandum for the Secretary
                                                        Exhibit C – Page 4 of 4




USDA/OIG-A/03601-21-KC and 03601-22-KC
Informational copies of this report have been distributed to:

Administrator, Farm Service Agency
       ATTN: Agency Liaison Office                              (10)
Government Accountability Office                                 (1)
Office of Management and Budget                                  (1)
Office of the Chief Financial Officer
       Director, Planning and Accountability Division            (1)
